                                                         IG-99-055




AUDIT
                            NASA IMPLEMENTATION OF THE
REPORT                        GOVERNMENT PERFORMANCE
                                    RESULTS ACT


                                 September 28, 1999




                           OFFICE OF INSPECTOR GENERAL


National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at
(202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:

       Assistant Inspector General for Auditing
       NASA Headquarters
       Code W, Room 8V69
       300 E Street, SW
       Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA OIG Hotline at
(800) 424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or
write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC
20026. The identity of each writer and caller can be kept confidential, upon request, to the extent
permitted by law.


Acronyms

FY             Fiscal Year
CFO            Chief Financial Officer
GAO            General Accounting Office
GPRA           Government Performance Results Act
OIG            Office of the Inspector General
SMC            Senior Management Council
W                                                                    September 28, 1999


TO:            B/Chief Financial Officer

FROM:          W/Assistant Inspector General for Auditing

SUBJECT:       Final Report on the Review of NASA Implementation of the Government
               Performance Results Act
               Assignment Number A9905200
               Report Number IG-99-055

The subject final report is provided for your use. Please refer to the Results in Brief
section for the overall review results. Our evaluation of your responses has been
incorporated into the body of the report. Your comments on a draft of this report were
responsive, and actions are sufficient to close recommendation 2. For recommendations
1 and 3, we request that you notify us of the actions taken, including the extent of testing
performed to ensure corrective actions are effective. Those recommendations will remain
open for reporting purposes.

If you have questions concerning the report, please contact Mr. Chester A. Sipsock,
Program Director for Environmental and Financial Management Audits, at (216) 433-
8960, or Mr. Richard Dix, Audit Program Manager, at (301) 286-8525. We appreciate
the courtesies extended to the audit staff. See Appendix D for the report distribution.

[original signed by]


Russell A. Rau

Enclosure
cc:
AI/Executive Officer
B/Comptroller
BF/Director, Financial Management Division
BR/Director, Resources Analysis Division
G/General Counsel
JM/Director, Management Assessment Division
Z/Senior Advisor for Strategic Planning
bcc:
W/AIGA, IG
  C. Sipsock
  V. R. Dix
B/Audit Liaison Representative
Z/Audit Liaison Representative
IG-99-055                                                                        September 28, 1999
 A9905200

                     NASA Implementation of the Government
                           Performance Results Act

Introduction


The NASA Office of Inspector General (OIG) has reviewed NASA’s implementation of the
Government Performance Results Act (GPRA) of 1993, focusing on the Agency’s fiscal year
(FY) 1999 performance plan and related performance report. See Appendix A for details on
our scope and methodology. This work represents the initial step of a broader plan, requested
by Congress, to review selected aspects of GPRA and to discuss the results in each OIG
Semiannual Report. 1

In 1993, Congress passed the GPRA to improve public confidence in the capability of the
Federal Government by systematically holding Federal agencies accountable for
achieving program results. This is done through setting program goals, measuring
program performance against those goals, and reporting publicly on their progress.
Federal agencies are required to:

•   Develop periodic strategic plans, setting forth the Agency’s mission and general goals
    and objectives. The initial Strategic Plan, required by the Congress no later than
    September 30, 1997, was to cover a period of not less than 5 years forward from the
    fiscal year in which it was submitted, or 2002. An updated strategic plan must be
    submitted every 3 years thereafter.

•   Prepare and submit to the Director of the Office of Management and Budget and the
    Congress an annual performance plan, beginning with FY 1999. The plan should
    establish objective and measurable performance goals, establish performance
    indicators to be used in measuring relevant outputs or other results, provide a basis for
    comparing actual results with the established goals, and describe the means to be used
    to verify and validate measured values.

•   Prepare and submit to the President and the Congress an annual performance report
    that describes actual program performance in the previous fiscal year. The report is
    required to set forth the performance indicators established in the annual performance
    plan and discuss the actual program performance achieved. The report should also
1
 An October 1998 letter signed by the House Majority Leader and Chairmen of the Committee on
Government Reform and Oversight, the House Subcommittee on Government Management, Information,
and Technology, and the Results Caucus requested the NASA OIG to establish a Results Act review plan.
The plan should examine (1) Agency efforts to develop and use performance measures for determining
progress toward achieving established goals and outcomes and (2) verification and validation of selected
data sources that support Agency performance plans and performance reports.
    describe actions that will be taken on unmet performance goals and summarize
    findings of program evaluations completed during the fiscal year. The first
    performance report is to be issued by March 31, 2000, covering results on the
    FY 1999 performance plan.

Results in Brief

NASA has made significant overall progress in implementing GPRA. The Agency has:

•   issued (in October 1996) a Strategic Management Handbook documenting the
    management policies, processes, guidelines, and responsibilities for strategic
    management;
•   issued (in September 1997) the first official NASA Strategic Plan, required for
    FY 1998;
•   issued annual performance plans covering FY’s 1999 and 2000;
•   incorporated performance targets from the annual plan into the individual
    performance plan of each responsible senior manager;
•   created policies requiring each major NASA program and project to demonstrate how
    it relates to the Agency’s strategic goals and to establish performance metrics; and
•   included GPRA-type performance measures2 in the FY 1998 Accountability Report
    that accompanied the financial statements.

Finally, Agency officials are actively seeking possible ways to further incorporate
performance measures into the overall budgeting process and to further streamline
reporting.

Those actions by NASA management are commendable and reflect a firm commitment to
effectively implement the principles of GPRA. However, there are two areas in which
additional management attention could help make Agency efforts more successful. First,
NASA’s Senior Management Council (SMC) did not assess Agency progress in
achieving the established performance goals and targets until August 1999. Council
assessments need to occur earlier, and at least twice during the year as described in the
FY 1999 performance plan, to be most beneficial. Also, the Agency has not established
formal procedures and schedules (describing who does what and when) to ensure that
those assessments are accomplished in a timely manner. Management action is needed to
ensure the FY 2000 and future performance plans are effectively monitored and adjusted
to achieve maximum results.

Second, the Agency has not established formal procedures to ensure that all the data and
information used to evaluate progress and report overall results are accurate and reliable.


2
 NASA did not issue an official GPRA performance plan in FY 1998. Therefore, the metrics referred to
were not official GPRA measures or targets but were similar in nature to the ones included in the FY 1999
plan.


                                                    2
The General Accounting Office (GAO) also discussed this area in its reviews.3
Management needs to establish effective procedures and fully describe them in the
performance plan to fully comply with GPRA and to produce credible performance
reports.

Background
The NASA Office of Policy and Plans has overall responsibility for the Agency's strategic
planning process, including preparing and updating the Strategic Plan and the Strategic
Management Handbook. However, responsibility for preparing and updating the GPRA-
required performance plan and performance report has been delegated to the Office of the
Chief Financial Officer (CFO). As part of that responsibility, the CFO must establish the
procedures and processes needed to effectively monitor and evaluate Agency-wide
performance and to ensure the data and information needed to do so is available and
credible.

Performance evaluation is a crucial element in the overall strategic management process.
An effective evaluation process supports formal reporting on how well the Agency is
doing in achieving its goals and allows changes to be identified and made to the goals to
help promote the greatest overall level of performance. NASA’s FY 1999 performance
plan included a description of how Agency progress in meeting its performance goals
would be evaluated. The process includes a combination of internal and external
assessments, the results of which are to be included in the annual GPRA performance
report.

A primary part of the internal assessment process is a periodic review by the SMC. The
NASA Administrator chairs the Council, and the members include the Deputy
Administrator, the Headquarters Officials-in-Charge, Center Directors, and the Jet
Propulsion Laboratory Director. NASA’s annual performance plan states that this group
will conduct assessment reviews twice a year to ensure that sufficient progress is being
made in meeting the performance targets established for the Strategic Enterprises and
Crosscutting Processes.4

NASA’s senior managers must have accurate and reliable information on actual
performance to effectively monitor progress and prepare the required annual reports.
Providing the needed accuracy and reliability requires formal, documented controls and
processes to verify and validate the data and information. The data and information for
some of the performance targets will come from NASA systems and sources, while
3
  The GAO reviewed NASA’s FY’s 1999 and 2000 performance plans and noted a number of strengths as
well as areas that could be improved (see Appendix B). Data credibility was a weakness noted in both
plans.
4
  NASA executes its mission through four strategic Enterprise organizations. They are Space Science,
Earth Science, Human Exploration and Development of Space, and Aero-Space Technology. There are
other Crosscutting processes that support these Enterprises and Agency strategic goals in general. Those
processes are to: Manage Strategically; Provide Aerospace Products and Capabilities; Generate Knowledge;
and Communicate Knowledge.


                                                   3
external studies and reports will be the sources of information for other targets.
Therefore, an effective verification and validation process will have to include internal
controls such as audits, evaluations, and system controls as well as external assessments
by scientific peer review or advisory groups.

Monitoring Overall Agency Performance

Finding. The SMC did not assess Agency-wide progress in meeting the FY 1999
performance objectives and targets until August 6, 1999. Also, the CFO has not yet
established procedures to ensure the accuracy and reliability of the data and information
used by the SMC and Headquarters officials to assess progress. The Agency will also use
that data and information to prepare the annual performance report. A primary reason for
these conditions is that NASA, like many other agencies, is still in the early stages of
implementing GPRA requirements and has placed most of the emphasis and effort on
developing and updating the strategic and annual performance plans. The first official
GPRA performance report and the information needed to prepare it is not due until March
2000. However, by not addressing these two areas earlier in the year, NASA has lost the
opportunity to identify potential problems in the progress made on FY 1999 targets and in
the data needed to assess them. Likewise, the opportunity has also been lost to make
timely adjustments to the targets which could have helped maximize overall agency
performance

Assessing Agency-Wide Progress. Establishing a process to periodically collect
information and assess progress in meeting established targets is critical in achieving the
current year performance goals and in formulating performance targets in future plans.
NASA recognized the importance of assessing progress by including a provision in the
FY 1999 performance plan that the SMC review progress twice a year. NASA’s Strategic
Management Handbook also emphasizes the importance of monitoring and assessing
progress. The handbook states that when data indicate that actual performance does not
meet the level planned, the measurements will help identify opportunities for continuous
improvement and reengineering which will help enable performance improvement.

Many of the performance targets in the FY 1999 plan are related to programs and projects
that are executed and managed at the Center level. Headquarters officials told us that
there had been some assessments at the Center level, such as those by a Center-level
Program Management Council or an independent review team. We did not perform work
at the Centers to either verify this or evaluate what the Centers had done to monitor
progress on individual targets. Assessments by program offices and groups at the Centers
are clearly a vital part of the oversight process, and we are encouraged to hear that they
are being done in some cases. However, the Center-level assessments and monitoring
are, by nature, focused primarily on individual program or project performance goals and
targets.


Our concern is that the SMC, or a similar senior-management group, did not make a mid-


                                             4
year, Agency-wide assessment of progress by the Enterprises and Crosscutting Processes
in meeting their objectives and targets. When we began our work in June, the SMC
Executive Secretary told us that the SMC had not made a progress assessment as
described in the performance plan and did not have it on the agenda for scheduled
meetings. The SMC subsequently discussed GPRA objectives and targets with senior
Headquarters managers on August 6, 1999, as part of scheduled budget presentations.
However, we believe that was too late in the year to effectively ensure that adequate
progress was being made and to implement desired or needed changes. Future
evaluations need to occur earlier to be most beneficial.

Senior-management oversight by groups such as the SMC provides an Agency-wide
perspective on GPRA performance and an added assurance that the Center-level reviews
and oversight are effective. We recognize that GPRA implementation is still in the early
stages and that several months remain until the first required performance report is due.
However, a formal process should already be in place to ensure that an Agency-wide
assessment is made of progress at critical points during the year and that necessary
adjustments are made to achieve the strategic goals. Management needs to promptly
establish procedures and schedule assessments (describing who does what and when) so
the FY 2000 performance plan can be appropriately monitored and adjusted to achieve
maximum results.

Verifying and Validating Performance Data. Monitoring progress and reporting final
results requires that performance data and information are collected, analyzed, and
summarized. Ensuring that the data and information are accurate and reliable is essential
for ensuring that Agency GPRA performance reports are credible. As noted earlier,
GPRA requires performance reports to describe the means used to validate and verify
measured values that will be used to assess and report performance. In reviewing
NASA’s FY’s 1999 and 2000 performance plans, the GAO concluded that there was only
limited confidence in the accuracy, completeness, and reliability of the information the
Agency would use to assess performance. NASA responded that GAO’s assessment was
premature because the Agency had issued two Accountability Reports 5 that included
performance measure information that had been audited by Arthur Anderson LLP who
identified no significant issues.

Our review of the FY 1999 performance plan showed that there are some targets that will
be relatively simple to measure and for which data verification will not be a major issue.
For example, one target is to “establish at least five new Regional Earth Science
Applications Centers.” Verifying this should be simple and straightforward. Also, there
is little risk that this kind of information will be subject to miscalculation or
misinterpretation.

However, many of the targets involve more complicated data and/or sources that will

5
  As part of a pilot program, NASA has streamlined reporting by producing Accountability Reports that
consolidate reports required by several statutes. The FY 1998 report included information on program
accomplishments, internal controls, financial improvements, and the financial statements.


                                                   5
need to be closely examined and verified. For example, one FY 1999 target was to
“. . . begin the second of a 3-year sequence of instantaneous measurements of rainfall
rates and monthly accumulations in the global tropics. This will be the first measurement
of global tropical rainfall. Current uncertainty is 50 percent . . . data will reduce
uncertainty to 10 percent.” Ensuring the accuracy and reliability of reported performance
on this target will require verifying that all needed data was obtained and accurately
recorded and analyzed, and validating that the uncertainty had been reduced to the
reported level. There are many other targets like this one that will require similar efforts
for verification and validation.

Senior managers at Headquarters who had collected information (from the Centers or
various programs) on some targets for which they were responsible told us they had not
taken specific action to verify the data or to satisfy themselves that the information and
conclusions were correct and reliable. They were instead relying on the Centers and
program offices that provided the information to make sure it was correct. We did not
visit the Centers to perform testing of the data or the sources and did not identify specific
data problems. However, the Agency needs a formal process to ensure that the data to be
used by the SMC or others to assess progress and to prepare the performance report is
accurate and reliable. Management action is needed to identify the performance targets
that have some data risk and to establish policy and procedures to ensure the reported data
and conclusions are reliable and that problems are fully disclosed.

Recommendations, Management's Response, and Evaluation of
Response

The NASA Chief Financial Officer should promptly establish policy and procedures
for:

1. Tracking progress in achieving the targets in the FY 2000 Performance Plan and
   future Plans with at least a mid-year and end of year assessment by a senior-
   management group like the SMC and appropriate external group(s).

2. Taking timely corrective actions whenever possible to improve performance on
   those targets not achieving satisfactory progress.

3. Verifying and validating data and supporting information before they are used
   by the SMC and others to assess progress and before they are included in the
   annual Performance Report.

Management’s Response. Concur. Regarding recommendation 1, the SMC charter is
being modified to include reviews during the April and August meetings. For
recommendation 2, applicable performance targets have been incorporated into the annual
performance plans of the Enterprise Associate Administrators and heads of the Functional



                                             6
Staff Offices. Regarding recommendation 3, instructions for final collection of data will
require the Enterprises and Functional Staff Offices to demonstrate how their submitted
data have been validated. Also, measures included in the 1999 Accountability Report
will be validated by an independent auditor.

Management also suggested minor editorial changes and commented that the draft report
did not describe the Comptroller’s efforts to determine whether individual offices had
established the means to review the status of their targets and did not mention the July
1999 presentations on the targets made to the NASA Capital Investment Council. The
complete text of management’s comments is in Appendix C.

Evaluation of Response. Management's actions are responsive to the recommendations.
Recommendation 2 is resolved and is considered closed for reporting purposes.
Recommendations 1 and 3 are also resolved, but will remain undispositioned and open
until agreed-to corrective actions are completed.

We made the minor editorial changes to the report proposed by management in its general
comments. We did not, however, modify the report to reflect management’s concern that
senior management had been provided status information on performance prior to
August 6. While that statement is true, our report is limited to a discussion of what
management had agreed to do as set out in its performance plan relative to monitoring
progress in achieving Agency targets. The Agency’s Performance Plan stated specifically
that the SMC would review progress twice a year as part of the evaluation of Agency
performance. If the Comptroller’s review with individual offices and discussions of
targets with the Capital Investment Council are intended to serve as part of the evaluation
process, either in lieu of the SMC evaluation or in addition to it, then those actions should
be included in the annual Performance Plan.




                                              7
             Appendix A. Objectives, Scope, and Methodology

Objectives

This is the first completed review in a series of planned reviews and audits performed by the
OIG, at the request of Congress, to provide oversight for selected aspects of NASA
implementation of GPRA. The overall plan for accomplishing this oversight was described
in the OIG’s Semiannual Report to Congress, Appendix VI, for the period ending March 31,
1999. The purpose of this initial audit was to determine NASA’s progress in implementing
GPRA and to summarize the results in the September 30, 1999, OIG Semiannual Report. In
accomplishing this, the specific objectives were to briefly examine:

   •   NASA’s efforts to develop and use performance measures for determining progress
       toward achieving the performance goals and program outcomes described in its annual
       performance plans and performance reports under the GPRA; and

   •   NASA’s verification and validation of selected data sources, information collection,
       and accounting systems that support NASA’s strategic and performance plans and
       performance reports.

Scope and Methodology

During the review, we:

   •   Reviewed the “Government Performance and Results Act of 1993,” Public Law
       103-62.
   •   Interviewed budget, program office, and other Headquarters personnel involved in
       implementing the strategic management process and the FY 1999 Performance
       Plan to obtain background information and documents.
   •   Reviewed documentation available at NASA Headquarters related to identifying
       and assessing progress in achieving the FY 1999 performance targets.
   •   Reviewed relevant parts of the NASA Strategic Management Handbook.
   •   Reviewed the NASA FY 1999 Performance Plan, February 1999 (revised).
   •   Reviewed GAO reports on evaluations of NASA’s FY's 1999 and 2000
       Performance Plans.
   •   Interviewed Headquarters personnel regarding oversight provided by the Senior
       Management Council on the FY 1999 Performance Plan.




                                             8
Appendix A

Management Controls Reviewed

We reviewed relevant aspects of the following management controls:

   •   Government Performance and Results Act of 1993.
   •   NASA Strategic Management Handbook, October 1996.
   •   NASA FY 1999 Performance Plan, February 1999 (revised).

We considered controls that were within the review scope and objectives to be adequate
except for those discussed in the finding section of the report.

Review Work

We performed all work from June through August 1999. After beginning the review and
assessing the resources needed to complete the objectives, we decided to limit work to NASA
Headquarters. Therefore, we performed no detailed testing of controls at NASA Centers.
We will perform such testing, if necessary, in future reviews of GPRA. We relied on all
automated data and information used to complete the review without any additional
verification of the automated systems.




                                           9
                 Appendix B. Summary of Prior Audit Coverage

General Accounting Office (GAO)

“Managing for Results: Observations on NASA’s Fiscal Year 1999 Performance
Plan (letter report),” June 5, 1998, GAO-NSIAD-98-181. Pursuant to a congressional
request, GAO reviewed NASA’s plan with a focus on (1) goals and objectives including
how the Agency plans to measure progress toward achieving the goals and objectives (2)
Agency strategies and resources needed to achieve the goals and objectives and (3)
availability and reliability of data necessary to achieve progress.

GAO found that the Agency's plan could provide a clearer picture of intended
performance across the Agency, does not fully portray the strategies and resources
needed, and does not provide complete confidence that the information NASA will use to
assess performance will be accurate, complete, and credible. GAO noted a number of
strengths in the plan including that it provided good linkage between strategic goals and
the plan’s performance goals and targets and that it used generally objective, quantifiable,
and useful performance measures.

“Observations on the NASA Annual Performance Plan for Fiscal Year 2000, (draft
report),” June 1999. As part of the congressional request for continued oversight of
managing for performance, GAO reviewed NASA’s FY 2000 plan. The draft report
noted some improvements over the FY 1999 Performance Plan especially in the
presentation of the goals and objectives and in specifically linking certain objectives to
specific goals. The key weaknesses noted were: (1) not providing a clear discussion of
how information-technology-related strategies and programs contribute to achievement of
performance goals and (2) not including procedures for verifying and validating
performance data.




                                             10
Appendix C. Management’s Response




                 11
Appendix C




             12
                       Appendix D. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
B/ Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
BR/Director, Resources Analysis Division
G/General Counsel
H/Associate Administrator for Procurement
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
Y/Associate Administrator for Earth Science
Z/Associate Administrator for Office of Policy and Plans
Z/Senior Advisor for Strategic Planning

NASA Advisory Official

Chairperson, NASA Advisory Council

NASA Centers

Director, Goddard Space Flight Center
Chief Counsel, Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Director of Management, Office of Management and Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
  of Management and Budget
Budget Examiner, Energy and Science Division, Office of Management and Budget
Associate Director, National Security and International Affairs Division, Defense
  Acquisition Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space




                                           13
14
Appendix D

Chairman and Ranking Minority Member -- Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                          15
Major Contributors to This Report

Chester A. Sipsock, Program Director, Environmental and Financial Management
Audits

Richard Dix, Audit Program Manager

Nancy C. Cipolla, Report Process Manager

Annette Huffman, Program Assistant
